Office of Inspector General


 Audit of the Board’s Actions to
 Analyze Mortgage Foreclosure
        Processing Risks




              •                 •




Board of Governors of the Federal Reserve System


                                         September 2012
September 28, 2012

MEMORANDUM

TO:           Michael Gibson
              Director, Division of Banking Supervision and Regulation

              Sandra Braunstein
              Director, Division of Consumer and Community Affairs

FROM:         Andrew Patchan Jr.
              Associate Inspector General for Audits and Attestations

SUBJECT:      OIG Report: Audit of the Board’s Actions to Analyze Mortgage Foreclosure
              Processing Risks

The Office of Inspector General of the Board of Governors of the Federal Reserve System
(Board) is pleased to present the results of our Audit of the Board’s Actions to Analyze Mortgage
Foreclosure Processing Risks. The financial crisis of 2008–09 caused instability for large parts
of the financial system. One of the results of the financial crisis was borrowers defaulting on
their mortgage payments and a record number of residential mortgages entering the foreclosure
process. In fall 2010, issues surfaced regarding documentation deficiencies and irregularities in
foreclosure processing. In response, the Board, the Office of the Comptroller of the Currency,
the Federal Deposit Insurance Corporation, and the Office of Thrift Supervision initiated an
interagency review of foreclosure policies and practices. Personnel from several Board divisions
were engaged in this review, including the Division of Consumer and Community Affairs
(DCCA) and the Division of Banking Supervision and Regulation (BS&R), which served as the
Board’s project sponsors and co-leads for the effort.

The Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank) established the
Financial Stability Oversight Council (FSOC) to monitor potential threats to the financial system
and provide for more stringent regulation of nonbank financial companies and financial activities
that FSOC determines, based on a consideration of risk-related factors, pose risks to financial
stability. Dodd-Frank also designated the Board Chairman as a voting member of FSOC.

Given the public attention on foreclosures, the broad requirements of Dodd-Frank, and the Board
Chairman’s responsibility as a voting member of FSOC, we conducted an audit to assess the
Board’s activities in response to potential risks related to mortgage foreclosures. To carry out
Michael Gibson and Sandra Braunstein            2                              September 28, 2012



our objective, we reviewed the Board’s efforts on the interagency review that addressed
foreclosure processing issues. We also obtained information on a related matter, the Federal
Reserve Bank of New York’s assessment of the mortgage repurchase risk for selected
institutions.

Overall, we found that the Board was able to develop approaches and perform activities to assess
the foreclosure processing risks. The Board did, however, experience challenges in executing
the interagency foreclosure review. DCCA and BS&R faced challenges with managing the
review’s resource demands and timeline, which delayed other scheduled supervisory activities.
The examiners who participated on the interagency foreclosure review were challenged to
quickly develop an understanding of the complex legal issues related to foreclosures and to
examine a third-party service provider’s foreclosure processing activities, with which examiners
lacked prior experience. DCCA and BS&R were challenged with identifying staff with
necessary expertise to perform the interagency foreclosure review.

Our report contains two recommendations focused on improving the Board’s processes for
responding to future risks. We recommend that BS&R and DCCA conduct a lessons-learned
exercise to evaluate insights gained from the interagency foreclosure review. We also
recommend that BS&R assess whether the current processes and tools used to identify staff with
specialized skills and competencies are adequate and define a frequency for the periodic review
of skill and competency categories.

We provided a draft of our report to you for review and comment. In your consolidated
response, included as appendix 1, you stated that staff have conducted an informal assessment of
the interagency foreclosure review initiative, which can be leveraged to satisfy the intent of our
first recommendation. In regard to our second recommendation, you stated that you agree that
an opportunity exists to assess whether the processes used to identify skills and competencies
outside of those needed for basic supervision can be enhanced.

We appreciate the cooperation that we received from your staffs during our review. This report
will be added to our public website and will be summarized in our next semiannual report to
Congress. 3OHDVHFRQWDFW3HWHU6KHULGDQ6HQLRU2,*0DQDJHUDWRUPHDW
LI\RXZRXOGOLNHWRGLVFXVVWKHUHSRUWRUDQ\UHODWHGLVVXHV

cc:   William Spaniel, BS&R
      Suzanne Killian, DCCA
      William Lang, Federal Reserve Bank of Philadelphia
      Michael Alix, Federal Reserve Bank of New York
Office of Inspector General

   Audit of the Board’s Actions to
   Analyze Mortgage Foreclosure
          Processing Risks




Board of Governors of the Federal Reserve System


                                       September 2012
Table of Contents




Background ................................................................................................................................... 7
   Foreclosures ................................................................................................................................ 7
   Mortgage Repurchases ................................................................................................................ 9
   The Dodd-Frank Wall Street Reform and Consumer Protection Act ....................................... 10
Objective, Scope, and Methodology .......................................................................................... 10
Findings, Conclusions, and Recommendations ........................................................................ 11
Appendix ...................................................................................................................................... 17
   Appendix 1 – Management’s Response.................................................................................... 19




                                                                        5
Background
Foreclosures

The financial crisis of 2008–09 caused instability for large parts of the financial system. One of
the results of the financial crisis was borrowers defaulting on their mortgage payments and a
record number of residential mortgages entering the foreclosure process. 1 Foreclosures impact
institutions, communities, consumers, the housing markets, and the economic recovery. The
percentage of U.S. mortgage debt that is more than 90 days late has increased significantly since
2007 (figure 1). According to data supplementing the November 2011 Federal Reserve Bank of
New York’s Quarterly Report on Household Debt and Credit, the national average of mortgage
debt that is more than 90 days late hit a peak of approximately 9 percent in the first quarter of
2010. In some states, more than 10 percent of mortgage debt was more than 90 days late in the
first quarter of 2010.
                   Figure 1: Percent of Mortgage Debt More Than 90 Days Late, by State
                                                                                                 AZ
                   27
                                                                                                 CA
                   24
                                                                                                 FL
                   21
                                                                                                 IL
                   18
                                                                                                 MI
                   15
                                                                                                 NJ
                   12
                                                                                                 NV
                    9
                                                                                                 NY
                    6
                                                                                                 OH
                    3
                                                                                                 PA
                    0
                                                                                                 TX
                                                                                                 National Average

                   Source: Data supplementing the Federal Reserve Bank of New York, Quarterly Report on
                   Household Debt and Credit, November 2011.

Once a borrower is in default for a specified period, mortgage servicers must assess whether to
initiate foreclosure or pursue a foreclosure alternative. Given the record volume of U.S.
borrowers in default, mortgage servicers have initiated a large number of foreclosures. A
noticeable increase in new foreclosures began in 2007 (figure 2). From the second quarter of
2005 to the second quarter of 2009, new foreclosures increased approximately 281 percent.




1.   Foreclosure is a legal proceeding to terminate a borrower’s interest in property, instituted by the lender either to
     gain title or to force a sale in order to satisfy the unpaid debt secured by the property.




                                                            7
                       Figure 2: Number of U.S. Consumers with New Foreclosures

                      600
                      500
                      400
                      300
                      200
                      100
                         0


                                  Number of consumers with new foreclosures (in thousands)


                      Source: Data supplementing the Federal Reserve Bank of New York, Quarterly Report on
                      Household Debt and Credit, November 2011.



Mortgage servicers face increased demands when the loans they service are in default. To meet
these increased demands, some servicers engage third parties, such as foreclosure attorneys and
default-service providers, to assist with the foreclosure process.

In fall 2010, issues surfaced regarding deficiencies and irregularities in foreclosure processing,
including foreclosing with inaccurate documentation, assessing inaccurate fees and charges, or
foreclosing even when a borrower has been approved for a loan modification. Financial
regulators expressed concern that these foreclosure processing issues may have widespread
consequences for the housing market and borrowers, such as extended periods of depressed
home prices and reduced home-buyer and investor confidence.

To assess the potential impact of the foreclosure processing issues, in the fourth quarter of 2010
the Board of Governors of the Federal Reserve System (Board) began collaborating with the
Office of the Comptroller of the Currency (OCC), the Federal Deposit Insurance Corporation
(FDIC), and the Office of Thrift Supervision (OTS) to conduct an interagency foreclosure review
of 14 mortgage servicers. 2 The purpose of the interagency foreclosure review was to evaluate
the adequacy of controls and governance over servicers’ foreclosure processes and to assess
servicers’ authority to foreclose. In April 2011, the Board, the OCC, and the OTS issued a report
documenting the results of the review titled Interagency Review of Foreclosure Policies and
Practices. 3 As a result of the review, in April 2011 the Board issued formal enforcement actions

2.   The Dodd-Frank Wall Street Reform and Consumer Protection Act, which was enacted on July 21, 2010,
     abolished the OTS and transferred its powers and authorities to the Board, the OCC, and the FDIC as of July 21,
     2011.

3.   This report is available at http://www.federalreserve.gov/newsevents/press/enforcement/20110413a.htm.




                                                          8
against 10 banking organizations, requiring them to address deficient practices in foreclosure
processing.

Mortgage Repurchases
Another consequence of the financial crisis was escalating losses in the value of mortgage-
backed securities (MBS) due, in part, to borrowers defaulting on the mortgage loans underlying
the securities. Escalating losses in MBS have resulted in multiple parties asserting repurchase
claims against the parties that originated the mortgages, sold the mortgages, or had related roles.
Repurchase risk refers to obligations by institutions to repurchase mortgage loans under certain
circumstances, such as situations in which mortgage loans did not meet required underwriting
standards.

Residential mortgages are originated by a wide variety of market participants, such as banks,
nonbank financial institutions, thrifts, finance companies, investment banks, and corporate
issuers. Originating institutions have several options with respect to mortgage loans, including
holding the loan or selling the loan to another party. Institutions may sell mortgage loans as
whole loans or may sell mortgage loans to a governmental, quasi-governmental, or private entity
for assembly into pools of loans. Institutions may also issue securities that represent claims on
the principal and interest payments made by borrowers on the loans in the pool, a process known
as securitization. MBS are debt obligations that represent claims to the cash flows from pools of
mortgage loans. Most MBS are issued by U.S. government agencies or government-sponsored
enterprises. 4 Some private institutions, such as brokerage firms and banks, also securitize
mortgages, resulting in what are known as private-label MBS.

Defaults in the mortgages underlying MBS can reduce the value of the MBS; in the event of a
mortgage repurchase, losses may be transferred to the original seller or the party responsible for
the mortgage securitization. Financial institutions make representations and warranties about the
mortgage loans either sold as whole loans or securitized into government-sponsored enterprises
and private-label MBS. A breach of these representations or warranties allows the purchaser to
require the seller to repurchase the specific loan, often at par value. Mortgage loans may be
seriously delinquent or in default at the time of the repurchase and thus be valued substantially
below par value; if this is the case, the repurchase transfers the potential loss back to the original
seller or the party responsible for the mortgage securitization. The monetary losses associated
with these transactions constitute repurchase risk.

According to a 2010 Congressional Oversight Panel report, some of the triggers that may force
mortgage repurchases include undisclosed liabilities, income or employment misrepresentation,
property value falsification, and escrow fund mishandling. 5 The Congressional Oversight Panel


4.   The government-sponsored enterprises include the Federal National Mortgage Association (Fannie Mae) and
     the Federal Home Loan Mortgage Corporation (Freddie Mac).

5.   Congressional Oversight Panel, November Oversight Report: Examining the Consequences of Mortgage
     Irregularities for Financial Stability and Foreclosure Mitigation, November 16, 2010.




                                                       9
report stated that mortgage loans originated in 2005 through 2008 had the highest repurchase
demands thus far.

The Federal Reserve Bank of New York initiated an assessment of the potential mortgage
repurchase risk for selected institutions. The purpose of this exercise was to assess the impact of
mortgage loan repurchases on earnings and capital adequacy for large banks, to use this
information to evaluate Capital Plan Reviews, and to provide feedback to firms regarding the
relative scope and thoroughness of their mortgage repurchase analysis. In January 2011, a
Federal Reserve Bank of New York official briefed the Financial Stability Oversight Council
(FSOC) on the assessment.

The Dodd-Frank Wall Street Reform and Consumer Protection Act
The Dodd-Frank Wall Street Reform and Consumer Protection Act (Dodd-Frank) was enacted in
response to the financial crisis of 2008–09, which affected a wide range of financial institutions,
markets, and asset classes and caused instability for large parts of the financial system. Section
111 of Dodd-Frank established FSOC to monitor potential threats to the financial system and
provide for more stringent regulation of nonbank financial companies and financial activities that
FSOC determines, based on a consideration of risk-related factors, pose risks to financial
stability. Section 111 of Dodd-Frank also designated the Board Chairman as a voting member of
FSOC. 6

Objective, Scope, and Methodology
Given the public attention on foreclosures, the broad requirements of Dodd-Frank, and the Board
Chairman’s responsibility as a voting member of FSOC, we conducted an audit to assess the
Board’s activities in response to potential risks related to mortgage foreclosures. To achieve this
objective, we reviewed the Board’s activities from October 2010 to April 2011 to assess
foreclosure processing issues at selected federally regulated mortgage servicers as part of the
interagency foreclosure review. We also obtained information on a related matter, the Federal
Reserve Bank of New York’s assessment of the mortgage repurchase risk of selected institutions.

We reviewed supporting documentation addressing the purpose of the interagency foreclosure
review, participants involved in the effort, work performed, and results of the review. We
interviewed Board personnel from the Division of Consumer and Community Affairs (DCCA),
the Division of Banking Supervision and Regulation (BS&R), the Division of Research and
Statistics (R&S), and the Legal Division who were involved in evaluating the foreclosure


6.   FSOC is chaired by the Secretary of the Treasury. FSOC’s voting members include the heads of the Board, the
     Securities and Exchange Commission, the Commodity Futures Trading Commission, the OCC, the FDIC, the
     Federal Housing Finance Agency, the National Credit Union Administration, the Consumer Financial
     Protection Bureau, and an independent appointee with insurance expertise. FSOC’s nonvoting members
     include the heads of the Office of Financial Research and the Federal Insurance Office, a state banking
     supervisor, a state insurance commissioner, and a state securities commissioner.




                                                       10
processing issues or who otherwise supported the review. Our interviewees included project
sponsors and managers, economists, and attorneys. We also reviewed the process that the Board
used to identify examiners for this effort, as well as training materials that the Board prepared for
Federal Reserve System participants on the interagency review. In addition, we reviewed
examination and supervisory guidance related to foreclosures.

We reviewed documentation from the Federal Reserve System and third-party sources to obtain
additional background on the foreclosure processing and mortgage repurchase risk issues. This
documentation included testimony delivered by Board Governors as well as other federal
government officials regarding foreclosure processing and mortgage repurchases, a
Congressional Research Service report addressing documentation problems in foreclosure
processes, 7 a Congressional Oversight Panel report that examined the consequences of mortgage
irregularities for financial stability and foreclosure mitigation, 8 and an audit completed by the
Government Accountability Office that addressed foreclosure documentation problems. 9

We reviewed documentation to determine the Board’s responsibilities in relation to financial
stability and systemic risk monitoring, including Dodd-Frank provisions that relate to systemic
risk. We reviewed testimony delivered by Board officials regarding Board efforts to monitor
potential risks and support financial stability. We also reviewed documentation regarding FSOC,
including its various committees to support the monitoring of systemic risk.

We conducted our fieldwork from February 2011 through August 2011 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the review to obtain sufficient and appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our objectives. This report
has two recommendations.

Findings, Conclusions, and Recommendations
Overall, we found that the Board was able to develop approaches and perform activities to assess
the foreclosure processing risks. The Board collaborated with the OCC, the FDIC, and the OTS
to perform an interagency foreclosure review to assess the extent and potential impact of
deficiencies in foreclosure processing. In addition, the Federal Reserve Bank of New York
conducted an assessment to quantify the potential mortgage repurchase risk for selected
institutions. While the Board was able to develop approaches and perform activities to assess the
foreclosure processing issues through its participation in the interagency foreclosure review, it

7.   David H. Carpenter, “Robo-Signing” and Other Alleged Documentation Problems in Judicial and Nonjudicial
     Foreclosure Processes, Congressional Research Service, November 15, 2010.

8.   Congressional Oversight Panel, November Oversight Report: Examining the Consequences of Mortgage
     Irregularities for Financial Stability and Foreclosure Mitigation, November 16, 2010.

9.   Government Accountability Office, Mortgage Foreclosures: Documentation Problems Reveal Need for
     Ongoing Regulatory Oversight, May 2, 2011.




                                                     11
faced challenges in performing this review. First, DCCA and BS&R, which served as the
Board’s project sponsors and co-leads for the effort, faced challenges with managing the
review’s resource demands and timeline, which delayed other scheduled supervisory activities.
Second, the examiners who participated on the interagency foreclosure review had to quickly
develop an understanding of the legal nature of the issues and examine a third-party service
provider’s operations, with which examiners lacked prior experience. Third, DCCA and BS&R
faced challenges identifying staff with specialized skill sets and expertise to perform the
interagency foreclosure review.

Recommendation 1: We recommend that BS&R and DCCA conduct a lessons-learned
exercise to evaluate insights gained from the interagency foreclosure review.

We believe that the challenges faced by the Board in performing the interagency foreclosure
review can be analyzed to identify opportunities to improve future risk monitoring. A lessons-
learned exercise allows an organization to evaluate its performance and identify areas for
improvement. During our audit, we identified the following challenges that we believe should be
considered in such an exercise: (1) managing the resource demands of the interagency review,
(2) developing an understanding of the legal aspects inherent in the review, and (3) examining a
third-party service provider’s foreclosure processing activities.

Managing the Review’s Resource Demands

The interagency foreclosure review required the Board to assemble a large team due to the
complexity of the foreclosure issues as well as the review’s ambitious scope and timeline. While
the Board was able to draw upon existing resources to conduct the review, these resource
demands delayed other regularly scheduled examination activities.

Foreclosures are a complex area, and the multifaceted nature of the foreclosure processing issues
required the Board to assemble a team with varied skill sets to assess different dimensions of the
issues. To assess these issues, Board management drew upon both Board and Federal Reserve
Bank staff and assembled a project team of over 30 members. Board divisions engaged in these
activities included DCCA, BS&R, R&S, and the Legal Division. Staff with specialized skill sets
and expertise were involved in assessing various dimensions of the foreclosure processing issues
or otherwise supporting the interagency review.

Management from DCCA and BS&R oversaw the review. Economists from R&S assessed
potential economic ramifications of the issues, such as potential impacts on the housing market.
Attorneys from the Legal Division developed and provided training, provided legal support, and
evaluated files from a legal perspective to determine whether there were any deficiencies.
Federal Reserve Bank examiners conducted reviews of selected institutions.

The scope of the interagency review included 14 federally regulated mortgage servicers as well
as selected third-party service providers. In addition, the Board sent a questionnaire to 10
additional institutions that engage in mortgage servicing. The interagency review also had a
tight timeline; it was conducted over a period of approximately five months. Tasks completed
within the timeline included planning the review, identifying resources for the review, providing
training to Federal Reserve Bank examiners regarding foreclosures, conducting the review, and


                                                12
preparing and issuing a report in conjunction with the other federal agency participants. Figure 3
shows several key milestones.

   Figure 3: Interagency Foreclosure Review Timeline
     2010                                                  2011
      3Q                           4Q                       1Q                     2Q                            3Q


   Late September 2010:                 4Q 2010:                                   April 2011:
   Foreclosure processing issues        The Federal Reserve and other regulators   Interagency foreclosure review report is
   begin to emerge. Thereafter,         initiate interagency review.               issued. Formal enforcement actions are
   some major servicers                                                            issued to selected institutions based on the
                                        Early November 2010:                       review findings.
   temporarily self-impose
                                        The Board’s Legal Division provides
   moratoriums on foreclosures.
                                        training to examiners regarding
                                        foreclosures.


To support the review, Federal Reserve Board and Federal Reserve Bank staff often had to
assume responsibilities in addition to their regular duties. Several regularly scheduled
examinations were delayed to accommodate the review.

Developing an Understanding of the Legal Nature of the Issues

While Board management was able to identify experienced examiners to participate in the
interagency review, some examiners had limited knowledge of the legal aspects inherent in the
review. Foreclosures represent a complex area generally governed by state law, which can vary
considerably from state to state. In addition, prior supervisory approaches did not target
irregularities in foreclosure documentation in conducting examinations of servicers subject to
Federal Reserve supervision.

Individual states have distinct foreclosure-related statutes, rules, and court precedents. For
example, in jurisdictions known as “judicial foreclosure states,” the lender must establish its
claim before a judge that a borrower is in default; in nonjudicial states, a foreclosure can proceed
upon adequate and timely notice to the borrower, as defined by statute. Our review of
documentation indicated that examiners generally assess firms’ legal risks as part of their
examinations of firms’ compliance process. In remarks delivered at the National Consumer Law
Center’s Consumer Rights Litigation Conference, a Board Governor noted that, as a general
matter, the Federal Reserve reviews supervised banking organizations’ compliance procedures as
part of the examination process. The Board Governor noted, however, that federal examiners
typically are not experts in the application of each state’s laws, especially in an area as complex
as mortgage foreclosure procedures.

Our review of documentation indicated that the Federal Reserve System’s examination process
relies on a risk-focused framework and that historically, the Federal Reserve System’s
supervisory approach had not targeted irregularities in foreclosure documentation in conducting
examinations of servicers subject to its supervision. To ensure that the examiners assigned to the
review understood foreclosure processing issues, the Legal Division provided training and
assistance. This training addressed preconditions to foreclosure, types of foreclosure, and
documents needed to foreclose, among other topics. In addition, some Legal Division attorneys
assisted on examinations. They evaluated files from a legal perspective to determine whether


                                                                13
there were any deficiencies. DCCA management indicated that it is developing an updated
foreclosure work program to be used in examinations based on insights gained from its efforts as
part of the interagency foreclosure review.

Examining a Third-party Service Provider’s Foreclosure Processing Activities

During the interagency review, the Board also faced challenges in conducting reviews of a third-
party service provider’s operations. As a part of the interagency foreclosure review, Federal
Reserve personnel examined two businesses within the Lender Processing Services (LPS)
company, DOCX and Default Solutions, using the Board’s authority under the Bank Service
Company Act. LPS is a leading third-party service provider of default management services to
the mortgage industry, including services related to foreclosures. Prior to the interagency
review, Federal Reserve System examiners had not conducted operations reviews related to these
two LPS businesses. Examiners were able to execute the review, but they initially faced
challenges in understanding the businesses and in developing a work program for the
examination.

Under the Bank Service Company Act, federal banking agencies have authority to examine
service providers to which banks have outsourced key services to the same extent as if the
services were being performed by the bank itself on its own premises. 10 LPS provides default
management services to a number of financial institution clients. These clients include
depository institutions regularly examined by, or subsidiaries or affiliates of depository
institutions subject to examination by, the Board and other federal banking agencies.

Prior to the interagency review, the Federal Reserve System had examined certain information
technology components of LPS as part of the Federal Financial Institutions Examination Council
Multi-Regional Data Processing Servicer Program. This program considers an organization for
review if it processes “mission-critical applications for a large number of financial institutions
that are regulated by more than one agency, thereby posing a high degree of systemic risk.” 11

Our review also determined that examiners had not previously conducted operations reviews
related to LPS’s default management services, including the policies, procedures, or controls
surrounding the production or execution of documents used in the foreclosure process. Thus,
examiners lacked knowledge of those policies, procedures, and controls, including compliance
with applicable legal requirements, and faced challenges in developing a work program for the
examination.




10. 12 U.S.C. § 1861-67

11. Federal Financial Institutions Examination Council Multi-Regional Data Processing Servicer Program,
    http://ithandbook.ffiec.gov/it-booklets/supervision-of-technology-service-providers/multi-regional-data-
    processing-servicer-program.aspx.




                                                        14
Management’s Response

Regarding recommendation 1, the Division Directors stated the following:

               Staff from the Divisions have already conducted an informal assessment
               of the interagency foreclosure review initiative. We believe we can
               leverage that work and document our findings to satisfy the intent
               of this recommendation. In particular, we will review our
               processes to determine if improvements can be made in risk
               monitoring that would better position us to address future problems
               that may occur.

OIG Comment

In our opinion, the actions described by the Division Directors are responsive to our
recommendation, and we plan to follow up on their actions to ensure that the recommendation is
fully addressed.

Recommendation 2: We recommend that BS&R (a) assess whether the current processes
and tools used to identify staff with specialized skills and competencies are adequate and
(b) define a frequency for the periodic review of skill and competency categories.

At the onset of the interagency foreclosure review, the Board had to identify examiners with
specialized expertise in mortgage servicing. While the Federal Reserve System has an internal
system to track examiner skills and competencies, the system was not used to staff the review
because it did not provide the level of detail necessary to identify staff with mortgage servicing
skills. While the Board was able to bring the right resources to bear for this particular review,
challenges in identifying staff with necessary skills could hinder efficiency and effectiveness in
responding to future risks.

As part of our audit, we reviewed documentation regarding the systems and processes that are
used to maintain skills and competency information for supervision staff at the Board and the
Reserve Banks. The documentation indicated that the Federal Reserve System tracks
information regarding the skills of supervision staff at the Board and Federal Reserve Banks.
Board and Federal Reserve Bank management groups have identified 29 roles and associated
skills as well as 78 competencies for which competency definitions are documented. On an
annual basis, each Federal Reserve Bank is responsible for assigning roles, skills, and a skills
rating for each examiner. We determined that a “mortgage banking” competency exists, but it is
broadly defined. While “mortgage servicing operations” is included in the broad definition of
“mortgage banking,” the competency list does not have a distinct category addressing servicing
or servicing operations that can be queried to identify staff with expertise in this area.
Accordingly, management was not able to use this system to identify resources for the
interagency review.

A BS&R official informed us that Federal Reserve System personnel can request the addition of
new competency categories in this system. However, no requests have been received for new



                                                15
categories since the rollout of the process approximately two years ago. We reviewed
documentation that indicates the Board will coordinate an effort to review and modify the skills
and roles definitions on an annual or as-needed basis.

In light of the system limitations discussed above, the Board relied on a manual process to
identify examiners with the necessary expertise to staff the interagency review. In October 2010,
the Board held a conference call with Federal Reserve Bank Central Points of Contact and asked
them to provide the names of personnel with mortgage servicing expertise, specifically
knowledge of mortgage servicing operations and processes. Accordingly, the Central Points of
Contact identified staff for the examinations. In addition, various Board divisions provided extra
resources to assist where needed. While the Board was able to bring the right resources to bear
for the interagency review, challenges in identifying staff with necessary skills could hinder
efficiency and effectiveness in responding to future risks.

Management’s Response

Regarding recommendation 2, the Division Directors stated the following:

               We agree that there is an opportunity to assess whether the
               processes used to identify skills and competencies outside of those
               needed for basic supervision can be enhanced. That assessment
               will include a determination of whether the existing expectation of
               annual updates to staffs’ skills and roles is appropriate.

OIG Comment

In our opinion, the actions described by the Division Directors are responsive to our
recommendation, and we plan to follow up on their actions to ensure that the recommendation is
fully addressed.




                                               16
Appendix




   17
Appendix 1 – Management’s Response




                                     19
20
